MEDICARE NCENTIVE PAYMENTS
   IN HEALTH PROFESSIONAL
       SHORTAGE AREAS

 Do They Promote Access to Prima~   Care?




                                            -4
               EXECUTIVE                          SUMMARY

PURPOSE

To help determine whether Medicare incentive payments promote the Federal interest
in improving access to primary health care in Health Professional Shortage Areas.

BACKGROUND

Ensuring access to primary care physicians is a national concern. The nation suffers
from a shortage of primary care physicians, and some geographic areas are particularly
underserved.   Medical schools, State governments, nonprofit foundations, and the
Federal government have responded to these shortfalls by designing programs to
increase the supply of primary care physicians, particularly in undersexed areas.

Since 1989, physicians who treat Medicare patients in Health Professional Shortage
Areas (HPSAS) designated by the Department      of Health and Human Services have
been entitled to bonus payments.   Increasing payments to physicians in underserved
areas, it was believed, would have improved access to care in those areas. The current
law makes physicians in all HPSAS eligible for bonuses of 10 percent of the amount
paid for services. Spending for the Medicare incentive payment program has been
increasing rapidly and reached $68 million in 1992.

In theory, the bonus payments act as incentives to attract new physicians to
underserved areas and to discourage physicians in those areas from leaving. But
studies have raised questions about whether the incentives have any effect on
physicians’ decisions to remain in or move to an underserved  area.

This study focuses on the effectiveness ~f Medicare’s HPSA incentive payment
program as part of the larger Federal effort to improve access to primary care. We
recognize that the incentive program’s authorizing legislation mandates payments to
both specialists and primary care physicians in HPSAS. The widespread concern about
shortages of primary care physicians, however, prompted us to examine how well the
incentive payment program addresses that problem.

Our findings are based on a survey of 497 physicians who recently received Medicare
incentive payments and on a review of legislative history, regulations, and literature.

FINDINGS

A substantial amount of the Medicare incentive money has gone to physicians    who
provide little or no pnmaq care.

Forty-jive percenl ($31 million) of [he Medicnre incentive money distributed in 1992 wenl
to physicians who, according IO Federal definitions, are not prima~ care providers.


                                              i
       According to their own estimates, 74 percent of the specialists who received
       bonuses spend less than half of their time providing primary care sewices, and
       45 percent provide primary care services less than 10 percent of the time.

Fourteen percent ($10 miliion) of the 1992 incentive money went to urban, hospital-based
specialists.

       These physicians spend, on average, just 15 percent of their time delivering
       what they consider to be primary care. Because urban hospitals are attractive
       to specialists, providing incentives for specialists to practice there seems
       unnecessary and inconsistent with Federal priorities.

Among primary care physicians, Medicare incentive payments     rarely have a significant
#ect on practice location deckiom.

l%”ma~ care physicians WIZOreceived Medicare incentive payments       rate them, on average,
only sligh[ly to moderately importan~ in their [ocarion decisions.

       Only 30 percent rated the bonus payments as extremely         or very important.
       Thirty-two percent rated them not at all important.

Many physicians   received on~ a small amount    of Medicare incentive monq     in 1992.

       The median incentive payment for 1992 for primary care physicians in rural
       HPSAS was just $869, and for primary care physicians in urban HPSAS, $1,239.

Practice location determinants   are often nonmoneta~,   according COinterviewed physicians
and published literature.

       Net income can be less irdluential in attracting physicians to communities         than
       factors such as original hometown, climate, cultural activities, and the
       availability of medical facilities and colleagues.




                                                ii
RECOMMENDATIONS

In our draft report, we presented three options to address our findings: 1) eliminate
the incentive payment program, 2) modify the program to target it more effectively to
primary care, or 3) channel funds from the program to new or existing mechanisms for
improving access to primary care. Since we produced our draft report, the President
has proposed changing the program to provide larger incentives and to eliminate
incentives for specialty services in urban areas in his Health Security Act. That
proposal meets the objective laid out in our second option, Since the Health Care
Financing Administration     (HCFA) also concurred with this option and spoke of the
President’s proposal as addressing the program’s deficiencies, we have altered our
recommendation     to include only the second option from our draft report.

I?%eHeahh Care Financing Adminirrration should seek to modify the Medicare incentive
payment program to (a~et it more effectively to pn”ma~ care.

Modifying the Medicare incentive payment program would allow the payments to be
better targeted toward primary care physicians and would create stronger incentives.

COMMENTS       ON OUR     DRAFT    REPORT

We shared our draft report with and solicited comments from the Health Care
Financing Administration   (HCFA), the Public Health Service, the Assistant Secretary
for Planning and Evaluation (ASPE), the Assistant Secretary for Management     and
Budget, the Assistant Secretary for Legislation, and the Physician Payment Review
Commission.   We received comments from HCFA and ASPE. We reproduce these
comments and provide detailed responses to each in appendix B.

We are pleased that HCFA concurred with our recommendation        and after considering
the options we presented in our draft report elected to seek to modify the Medicare
incentive payment program to target it more effectively to primary care. We have
eliminated the other options we initially presented. We have addressed HCFA’S
technical comments as necessary.

We are pleased that ASPE concurred with our recommendation        and found our
methodology sound. We have clarified our presentation    as necessary to address
ASPE’S concerns.    We do not wish to propose the option to modify the HPSA
designation as ASPE suggests. The HPSA designation is also used for other purposes,
e.g., for placement of National Health Service Corps providers.  Thus the ramifications
of modi~ing the HPSA designation go beyond the scope of this report.




                                             ...
                                            111
                       TABLE                   OF            CONTENTS
                                                                                                                                PAGE



EXE~~                S-RY                                                                                                   . . . . . 1
                                                                                               . . ..-.    . . . . . . . .“
~ODU~ON,,...........                                                 . . . . . . . . . .                                . . . . . . ..   4
                                                                                . . . . . . .. . . . . . . ...
F~~GS             . . . . . . . . . . . . .. . .. . . . . . . . . .. . .

   �   Substantial     payments      tophysicians       who provide little ornoprima~ . . care. .. .. .. .. .. 45

        Minimal      effect onprimag         care physicians’ practice                        locatlondeclslons.        . .           8
                                                                                                       . . . . . . .. . . . . . . . .
   �


 ~cO_~A~ONS...                                                       .. . . . . . .. . . . .                                                 9

  ~W~oN~D~~REpORT                                                        .. . . . . . . . . . . .


  ~PEND1~                                                                                                            . . . . . . ...     A-1
                                                                                         . . . . . . . . . . . . . .
   A. Methodolo~            . . . . . . . .. . . . .. . . . . . . . . . . .                                                   . . . . . B-1

   B: Detailed        Comments       andOIG        Response                  . . . . . . . . . . . . . . . . . . . .. .. .. .. . . ...   c-1
                                                                                      . . . . . . . . . . . . ----
                                                                                                    “
                                                             .   .   .   .   .   ..

   C. Notes       . . . . . . . . . . . . .. . . . . .. ..
                           INTRODUCTION


PURPOSE

To help determine whether Medicare incentive payments promote the Federal interest
in improving access to primary health care in Health Professional Shortage Areas.

BACKGROUND

Ensuring access to primary care physicians is a national concern. By detecting and
treating problems early, and by making proper referrals to specialists when necessary,
primary care physicians can improve the health status of their patients while reducing
total health care expenditures.l   (Primary care physicians are defined here and in
most other discussions as doctors in the fields of general or family medicine, general
internal medicine, pediatrics, and obstetrics/gynecology  .2) Given the promise of better
health at lower cost, primary care physicians naturally play prominent roles in plans
for State-level and national health care reforms

The nation suffers from a shortage of primary care physicians, however, and some
geographic areas are particularly underserved.4     Medical schools, State governments,
and nonprofit foundations have responded to these shortfalls by designing programs to
encourage more medical school students and graduates to choose primary care as their
field of practice and to locate their practices in traditionally underserved areas.

The Federal government, through the Department      of Health and Human Services
(HHS), has also signaled its desire to improve access to primary care. The National
Health Service Corps, Area Health Education Centers, Community and Migrant
Health Centers, and Primary Care Cooperative Agreements are among the major
programs operated with this goal in mind.

To target support for primary care where the support is most needed, HHS defined
and identified Health Professional Shortage Areas (HPSAS).5 These are counties,
census tracts, or other geographic areas where the ratio of population to primary care
physicians is at least 3,000 to I.b The original purpose of defining HPSAS was to
create a list of possible placement sites for physicians obligated to serve in the
National Health Service Corps.’ Since 1989, however, HPSAS have had an additional
meaning. Physicians who treat Medicare patients in those areas are now entitled to
bonus payments.     The payments comprise a percentage of what the physicians
otherwise receive through Medicare Part B reimbursement         policies.

The Medicare bonus payments, as first conceived, were intended to address low
prevailing payment rates to primary care physicians in undersexed,   rural areas.
Increasing the payments, it was believed, would have improved access to care in those
areas. In its version of the Omnibus Reconciliation  Act of 1987, the House of
Representatives   proposed that the bonuses go only to primary care physicians in rural




                                                                   —.
areas with the most severe shortages.      It set the bonus rate at 10 percent.g But the

bill was modified as it went through the Senate and Conference Committee.          The final

law made both primary care physicians and specialists eligible, authorized payments

for rural physicians starting in 19S9 and for urban physicians starting in 1991, and

reduced the bonuses to 5 percent of the amount paid for services.v TWO years later,

the House of Representatives      passed legislation that would have restricted the

payments to primary care physicians. 1“ This. amendment,        however, did not become

law. Instead, Congress raised the bonuses from 5 to 10 percent and conferred

eligibility on all physicians in all HPSAs--not just those with the most severe

shortages .*1


With these amendments       and increasing awareness of the incentive payment program,

spending and participation     rapidly expanded.  In calendar year (CY) 1989, the

payments totaled $2 million and went to about 4,000 providers.12 In CY 1992, they

totaled $68 million, distributed among nearly 22,000 providers.1~ The bonuses can be

expected to continue rising in future years along with the rest of the Medicare

program expenditures.      Because they are tied to Medicare Part B payments, they do

not need to be reauthorized      and appropriated  each year, and they currently cannot be

capped.


In theory, the bonus payments act as incentives to attract new physicians to

underserved areas and to discourage physicians in those areas from leaving.14 But

studies by the Physician Payment Review Commission (PPRC) and by the

Congressional   Office of Technolo~   Assessment (OTA) have raised questions about

the efficacy of the intent ive payment program.’5 In particular, both expressed

uncertainty about whether incentives have any effect on physicians’ decisions to remain

in or move to an underserved area.


This study examines the efficacy of Medicare’s HPSA incentive payment program as

part of the larger Federal effort to improve access to primary care. We recognize that

the program is currently designed to encourage afl physicians--primary    care and

specialty alike--to practice in HPSAS. It could be argued that it is also intended to

encourage physicians in HPSAS to include more Medicare patients in their patient

mixes than they otherwise would. Nevertheless, we focus on the payments’ role in

improving access for the general population in shortage areas to primary care

physicians, and we do so for three reasons.


First, it is clear that the current administration plans to increase support for primary

care while limiting support for specialty care.14 Second, the administration’s   efforts

to reform the health care system involve all Americans, not just Medicare enrollees.

Third, although both primary care and specialty physicians are eligible for incentive

payments, the program is inextricably linked to the availability of primary care. That

is because an area’s status as a HPSA depends entirely on the representation      of

primary care physicians within that area, and not at all on the representation    of

specialists.





                                             2

If the Medicare incentive payment program is to be effective and efficient in
improving access to primary care in undeserved         areas, it will have to satisfy two
conditions.   First, it must direct its resources to physicians who provide primary care.
Second, the payments Imust be an important factor in influencing these physicians to
establish or maintain practices in underserved      areas. To determine whether these
conditions are being satisfied, we surveyed recent recipients of Medicare incentive
payments.    We learned what types of physicians are receiving payments, where they
are practicing, and how important the payments are in their practice location
decisions.

METHODOLOGY

We selected a random sample of 497 physicians from the records of 10 Medicare
carriers. These physicians, according to carrier records, received Medicare incentive
payments for the quarter ending December 31, 1992.17 Each was mailed a
questionnaire,   and 405 (81.5 percent) responded.  From the carriers, we obtained
payment histories and other information for all 497 physicians.   We also conducted
telephone interviews with 33 physicians. To supplement the information obtained
through this survey, we reviewed literature on the subject of access to primary care in
undersexed     areas. Details of our methodology appear in appendix A.

We conducted this inspection in accordance with the @ta/ity S[ondards for Inspections
issued by the President’s Council on Integrity and Efficiency.

SCOPE

This report focuses on Medicare incentive payments for which only physicians are
eligible. Physicians include cioctors of medicine, osteopathy, podiatry, and optometry.
Therefore, our discussion of primary care includes cn-dy physicians and not providers
such as nurse practitioners, physician assistants, and other nonphysician providers.
The role that these providers can play in improving access to primary care is discussed
in our May 1993 inspection report, “Enhancing the Utilization of Nonphysician Health
Care Providers” (OEI-01-90-02070).




                                             3

                                    FINDINGS


A SUBSTANTIAL  AMOUNT OF THE MEDICARE                          INCENTIVE  MONEY HAS
GONE TO PHYSICIANS  WHO PROVIDE LITTLE                         OR NO PRIMARY CARE.

Forty-five percent of the Medicare incentive money didribuled in 1992 went to physicians
who, according to Federal definitions, are not pn”maty care provkiem

Half (50 percent) of the providers who received HPSA incentive payments in late 1992
are specialists, and they received about half of the money distributed that year
(45 percent), or about $30.5 million.; The percentage of incentive money going to
specialists was greater in urban areas (54 percent) than in rural areas (35 percent) .18

Incentive payments made to specialists could still help improve access to primary care
if the specialists were providing primary care, but this is not generally the case.
According to their own estimates, 75 percent of specialists spend less than half their
time providing primary care services.lv Forty-five percent spend less than 10 percent
of their time on primary care. In contrast, 97 percent of primary care physicians
spend half their time or more delivering primary care, and 76 percent spend at least
90 percent of their time on prima~ care.

Physicians who spend less than 10 percent of their time on primary care received one
quarter (26 percent) of the incentive money in 1992. Physicians who spend 90 percent
or more received 44 percent.

Fourteen percent of the 1992 incentive money went 10 urban, hospi~al-based specialks.

Although they are designated as areas with too few physicians, HPSAS can contain
large and prestigious hospitals. Institutions such as Brigham and Women’s Hospital in
Boston, Mt. Sinai Medical Center in Cleveland, and Buffalo General Hospital are
located in HPSAS. This is because HPSA designations are made completely without
reference to the presence of either health care facilities or physicians not in primary
care fields.

These hospitals’ facilities, prestige, and large-city locations make them attractive to
specialists who practice primarily in hospitals. For these physicians, Medicare bonus
payments seem to be more of a windfall than an incentive. Increasing payments to
physicians who provide specialty services in hospitals alongside hundreds of other
specialists seems inconsistent with efforts to encourage physicians to provide primary
care in areas with few other doctors.




    *We provide   confidence   intervals   for our estimates   in appendix   A.


                                                4
Furthermore,    urban hospitals. because of their reputations and convenient locations,
attract patients from wide areas. Therefore, many of the people treated by physicians
who practice in urban HPSA hospitals probably do not even live in HPSAS themselves.
The law does not require that the patients of physicians receiving Medicare incentive
payments be residents of HPSAS, or that HCFA record whether or not these patients
live in HPSAS.

In extreme examples, neither the patients nor the physicians spend most of their time
in HPSAS. One of the physicians in our sample has a private practice in a wealthy
New Jersey suburb. On rare occasions, when his patients require services unavailable
in the suburban hospital, he will admit them to Cooper Hospital in nearby Camden.
Cooper Hospital, a 400-plus bed, university-affiliated  institution, is in an urban HPSA.
For the services he provided to his suburban patients in Camden, this physician
received, consistent with Federal law, $1,500 in incentive payments in 1992.

The HPSA incentive program paid approximately      $9.4 million in 1992 to specialists
who spend most of their time when they are in HPSAS providing services in hospitals.
These physicians spend, cm average, just 15 percent of their time delivering what they
consider to be primary care. Thirty-seven percent of them provide no primary care at
all.

Furthermore,     incentive payments to urban, hospital-based    specialists are higher on
average than payments to other physicians.      Urban, hospital-based      specialists received
median payments for 1992 of $1,425, compared to $656 for all incentive payment
recipients.   Although it can be argued that the general lack of physicians in rural
areas20 justifies paying bonuses to specialists in rural hospitals, paying higher-than-
average incentive payments to urban, hospital-based      specialists seems inappropriate.

AMONG PRIMARY CARE PHYSICIANS,  MEDICARE  INCENTIVE  PAYMENTS
RARELY HAVE A SIGNIFICANT EFFECT ON PRACTICE  LOCATION
DECISIONS.

We established in the previous section that much of the Medicare incentive money
goes to physicians who provide little or no primary care. We turn next to the question
of whether money that does reach primary care physicians is effective in encouraging
them to practice in underserved areas. Statistics presented in this section are taken
from the responses of the 262 physicians in our sample who meet the Federal
definition of primary care physicians (see the Introduction).  Because we realize that
some specialists provide primary care, we tested an alternative definition of primary
care physicians. We conducted the same analyses for the group of physicians in our
sample who say they spend at least half their time delivering primary care. The results
of those analyses were very similar to the ones presented below.




                                                5

I?n”rnmycare physicians who received Medicare incen~ive payments                        rate theq    on average,
slight~ to moderately important in their iocah”on deckion.s.

We asked incentive payment recipients, “How important are the bonus payments in
your decisions about where to practice?” They recorded their answers on a 5-point
scale, as shown in figure 1 below. Only 30 percent rated the bonus payments as
extremely or very important.

                                                    Figure    1




        Importance of Payments to Primary Care Physicians
                                                               2 (Very) (18%)                                      I



         3 (Moderately) (21%)
                                                                                    (Extremely) (13%)




            4 (Slightly) 17%)
                                                                                   at All) (32?40)




         N-208

         Sour- OIG Surveyof PhysiciansReceivingMedicare IncentivePayments,Spring1993

         Numbersdo not add to 1ob% or to figuresin texi becauseof roundingerrors.

                                                                                                                   I




The mean rating was 3.37, which falls between                  slightly and moderately         important.

The numbers presented above probably exaggerate somewhat the true importance of
the incentive payments.    Several of the physicians who rated the payments at least
slightly important also indicated that they were unaware, prior to receiving our
questionnaire,   that Medicare offered incentive payments to physicians in HPSAS.21 It
seems unlikely that these physicians could truly attach any importance to the payments
without knowing of their existence. Also, when we intemiewed physicians about the
written responses they provided to us, they frequently indicated that they had
overstated the importance of the incentive payments.




                                                         6

A study commissioned     by HCFA predicted that bonus payments would be more
effective in retaining physicians who already practice in HPSAS than in attracting new
physicians to HPSAS.Z2 Yet primary care physicians who have practiced in their
current locations since before the incentive payments began found the payments less
important (mean rating = 3.54) to their decisions than did their counterparts    who
arrived since the payments started (mean rating = 3.05). Physicians with previously
established practices represent 65 percent of our primary care subsample, and the
average length of practice among all primary care physicians is 11 years.

Many physicians received only a small amount of Medicare incentive money in 1992.

The mean 1992 incentive payment for physicians in our sample was $2,375. But the

mean is inflated by a relatively small number of large payments.      (For example, 13

primary care physicians in our sample had payments in 1992 of $10,000 or more.) The

median incentive payments for 1992 for primary care physicians in rural HPSAS was

just $869, and for primary care physicians in urban HPSAS, $1,239. These payments

seem insignificant in comparison with physicians’ average incomeszs and therefore

are unlikely to have major effects on physicians’ location decisions.


The larger the total annual incentive payments, the more important the payments are

rated 24 The median amount paid to physicians who rated the payments extremely,

very, or moderately important was $1,572 (mean $3,832); for physicians rating the

payments slightly or not at ail important, the median payment was $801 (mean

$1,723).


Higher payment amounts are also associated with increased awareness of the program.

Physicians who had been aware, before receiving our questionnaire, that Medicare

offered Medicare incentive payments received a median payment of $1,461.

Physicians who had not been aware received a median payment of $410.


Practice location determinants   are often nonmonetary,   according to interviewed physicians
and publkhed literature.

The apparently low importance attached to incentive payments by physicians in our
sample is consistent with prior research on location decisions. According to research
reviewed by the HCFA-commissioned          study, net income can be less irdluential in
attracting physicians to communities than factors such as original hometown, climate,
cultural activities, and the availability of medical facilities and colleagues.zs  Such
factors are also more important than income in physicians’ decisions to stay or leave
rural areas.26

The importance of Sociill and cultural factors was reinforced in conversations with the
14 primary care physicians in our telephone interview subsample.    The reasons they
mentioned for choosing their current practice location included presence of family, site
of training, and need for physicians in their areas. None indicated that they would
stop practicing in their HPSAS if the incentive payments were discontinued.


                                              7

                    RECOMMENDATIONS


In our draft report, we presented three opticms to address our findings: 1) eliminate
the incentive payment program, 2) modify the program to target it more effectively to
primary care, or 3) channel funds from the program to new or existing mechanisms for
improving access to primary care. Since we produced our draft report, the President
has proposed the Health Security Act. As part of that proposal, the Medicare
incentive payment program would be changed to provide twenty percent bonuses to
physicians providing services in HPSAS and would eliminate bonuses for specialty
services in urban areas. The increase in the size of the payments could make them
more effective incentives.  The elimination of incentives for specialty services in urban
areas could more effectively target the program to primary care. Because HCFA
concurred with this option and spoke of the President’s proposal as addressing the
program’s deficiencies, we have altered our recommendation      to include only the
second option from our draft report.

The HeaUh Care Financing Administration (HCFA) shouid seek 10 modifi ~he Medicare
incentive payment program to ta)get it more efleclively 10 prima?y care.

As we noted in the background section, the current statute authorizes Medicare
incentive payments to both specialists and primary care physicians in HPSAS.
However, current Federal priorities call for budgetary restraint and emphasis on
primary care. Meanwhile, Medicare’s HPSA incentive payment program is directing
millions of dollars to providers of specialty care. The money that it does provide to
primary care physicians seems to have only slight importance in their decisions to
practice in underserved   areas. Thus, the program appears inconsistent with current
Federal interests.

The incentive program as currently designed has two fundamental      flaws that limit its
effectiveness in enhancing access to primary care. Bonuses are being given to many
physicians who are not providing primary care, and they are not strong influences on
physicians’ locations decisions. These flaws suggest that (1) the payments should be
targeted more specifically, and (2) they should be modified to create stronger
incentives.  Because higher payments seem to have more influence on physicians, the
program might be more effective if the payments were increased.      Payments to some
physicians could be increased without adding to overall expenditures    if payments were
withdrawn from other physicians.

One option for increasing payments is to raise the bonus percentage.  The bonus
could be set, for example, to 15 or 20 percent of standard Part B payments.    There
are many options for limiting payments in order to offset payment increases.    one
would be to confer eligibility on only those physicians in HPSAS who were recognized
by HCFA as primary care providers.      Another would be to make all physicians in
HPSAS eligible, but to provide incentive payments only when they provided what
HCFA considered to be primary care services. A third would be for HCFA to identify


                                            8
Medicare enrollees who reside in HPSAsand     to allow incentive   payments   for
physicians only when they treat HPSA residents.




                                           9
COMMENTS                     ON       THE        DRAFT             REPORT

We shared our draft report with and solicited comments from the Health Care
Financing Administration   (HCFA), the Public Health Service, the Assistant Secretary
for Planning and Evaluation (ASPE), the Assistant Secretary for Management      and
Budget, the Assistant Secretary for Legislation, ,lnd the Physician Payment Review
Commission.   We received comments on our draft report from the Health Care
Financing Administration   (HCFA) and the Assistant Secretary for Planning and
Evaluation (ASPE).     We reproduce these comments and provide detailed responses to
each in Appendix B.

We are pleased that HCFA concurred with our recommendation        and after considering
the options we presented in our draft report elected to seek to modify the Medicare
incentive payment program to target it more effectively to primary care. Because they
selected this option and because the President’s Health Security Act includes a
proposal to make improvements    to the program, we have eliminated the other options
we initially presented. We have addressed HCFA’S technical comments as necessary.

We are pleased that ASPE concurred with our recommendation         and found our
methodology sound. We have eliminated the option about which ASPE had concerns,
for the reasons noted above. We do not wish to propose the option to modify the
HPSA designation as ASPE suggests, because the HPSA designation is used for other
purposes.   We note that our Management     Advisory Report “Design Flaws in the
Medicare Incentive Payment Program,” (OEI-01-93-OO05 1), issued in June 1994,
discusses this issue. We have clarified our presentation as necessary to address
ASPE’S other concerns.




                                           10

                             APPENDIX                    A

                                   METHODOLOGY

Our sources for this report included: (1) responses to a mail survey of a sample of
HPSA incentive payment recipients, (2) informaticm about those recipients supplied by
Medicare carriers, (3)telephone    inte~iews with asubsample       of incentive payment
recipients,
     .       and (4)
                  ., a review of written  material including laws,  committee reports,
regulations, HHS memoranda,      and periodical literature.  In this appendix we describe
each of our data collection techniques and explain the analyses we performed.

MAIL SURVEY

To select a representative  sample of incentive payment recipients, we obtained from
the Health Care Financing Administration     (HCFA) a list showing the distribution of
incentive payments for the quarter ending September 30, 1992. The list showed, for
each of the 58 Medicare carriers, the total amount paid in Medicare incentives for
that quarter and the total number of physicians receiving incentive payments.     We
excluded from that list the carrier for the Railroad Retirement   Board (RRB), to avoid
duplicate counting of physicians who submit claims to both that carrier and the carrier
in their home State.

Subsequently, we employed a two-stage Rao-Hartly-Cochran        sampling technique27 to
randomly select ten carriers and approximately    50 physicians* within each carrier for
a total of about 500 physicians. At the first stage, we used the software Rats/Stats
from the DHHS Office of Inspector General, Office of Audit Semites, to randomly
assign the 57 carriers into 10 groups. This produced three groups of five carriers and
seven groups of six carriers from which the software selected a carrier with probability
proportional   to size. Size was measured by the number of HPSA physicians in the
carrier according to the list provided by HCFA. The ten carriers and their probability
of selection appear in the table below.




     *When we selected our sample from the carriers, we did not know whether the
sample would consist entirely of physicians, even though only providers of physicians’
services are eligible for incentive payments.      When reviewing a sample of 1991
Medicare claims associated with HPSA bonus payments, we discovered a number of
claims which used provider specialty codes resemed for nonphysicians,        such as
laboratories and medical equipment suppliers.        As it turned out, however, all but one
of the providers in our sample were either physicians --doctors of medicine, osteopathy,
podiatry, and optomet~--or      facilities employing physicians. The one exception was a
physician assistant.  For clarity’s sake, we refer to all sampled providers as physicians.


                                           A-1
r                                                                                                                 1
1State            (Carrier)           ~ Number of              Number of      ,~ Probability of   ~ Probability   ~
                                      I    Bcmus-                Bonus-            Selection      ~      of       ;
                                      i Receiving              Receiving       ~ Within Group     i Selection     I
                                      ~ Physicians in
                                      ,
                                                              Physicians in    t                  I Overall       I
                                           Group’                Carrier       ~
1 Alabama              (Blue               2,796                  834         i       2+-+
  Shield)                             I
                                      ,                                       \                   I
         Georgia     (Aetna)          I    4,061                  1,340       i       33.0%            6.4%       \
                                                                                  —
         Idaho (Equitable)            !     799                       71              8.9%             0.3~G
                                                                                                                  A

         Indiana                           2,581                  317                 12.390            1.5%      I

         (AdminaStar

         Federal)                                                                                                 1

         New Jersey (Penn.            ~     1,584                  987        ,       62.3%             4.770     1




    ‘    Blue Shield)                 I                                       \
                                      1                                                                           f
         Western New York             ~     1,921                  895        t       46.6%             4.376     ,
         (Blue Shield)                                   1                    I
                                                                              )
         Ohio (Nationwide)                  2,011                 1,007       1       50.0%	      ~     4.8YG     ~
                                                                                                  I
         Puerto     Rico (SSS)        I     1,259        ‘         706                56.1%       I     3.4%      1

                                                                                      51.0%       ~     5.570         I

         Texas (Blue Shield)                2,246        ~        1,145
        [ West Virginia                     1,727         ‘        436                25.2%       i     2.17G

        ~ (Nationwide-Ohio)
                                                                                                  I


         ‘For quarter         ending September      30, 1992.


        Within each sampled carrier, we used simple random sampling to select physicians.

        Each carrier provided a hard copy computer listing of every provider number for

        which it issued a HPSA bonus check for the quarter ending December 31, 1992. (We

        used fourth quarter records to select physicians even though we use third quarter

        records to select carriers, because we wanted the most recent information on

        physicians available, and that data was not available when we selected carriers. We do

        not believe that this switch adversely affects our ability to generalize.) We used

        systematic sampling to obtain the sample manually. Beginning with a random start, we

        selected every nth provider number (n depended on the number of physicians for each

        carrier) to obtain approximately   50 provider numbers within a carrier. We did not get

        exactly 50 in each carrier due to rounding of the skip interval calculated to sample the

        physicians and because some physicians had multiple provider numbers.       The table

        below shows, by carrier, the universe, sample sizes, and response rate of physicians.





                                                               A-2

                                                 ~———”
                          ~i
                                                                                             Useable      \           Respons]
                         ~ Universe’”              I ‘~~~~e                    \                                            (%)          ~
I                                                  \                                        Responses
    carrier                                        1
                                                                                                                            81
                                       735         ;               42           \               34            i
                                                                               :7
    Alabama                                                                                                                  74
                          I                                                                     37            ~
                                       l,~~s       \               50
    Georgia               \                        ,                                                                         94
                                                   I               47              ~             44
                          I             73
    Idaho                                           \                                                                        83
I                                                                                                44
                                        320         ;              53               \
     Indiana                                         1                                                                       88
                                                                                                 45               !
                                        917          ;              51
     New Jersey                                                                                                               90
                                                                    51                           46
                                         863
     Western    New            \                       I
                                                       I
     York                                                                                                                     72
                                         954           !            50                  \         36              ~
      ohio                                                 I                                                          {       65
                                                                                                  33
                                         458               \        51
      puerto   Rico                                        ,                                                                      S8
                                                                                                     44               i
                                         ~,066             i            50           ;
      Texas                        I                                               :                          I                   81     !
                                   I      414                  \        52           \               42
       West Virginia               I                                                                                              82
                                                                        497                 ‘     405                 ~
                                         6,908                 1
       Total

       aForquarter    ending December 31, 1992.
       bUniverse and sample sizes reflect adjustments to exclude 11 physicians
       originally selected but later determined
                                             Sevenbyofthethese
                                                            carriers  to be ineligible
                                                                 physicians            for the
                                                                            were in Alabama,
        incentive payments they received.      Idaho, New York, and West Virginia.
        and there was one each in Georgia,

                                                     clinic, to
    Most of the provider numbers selected corresponded       hospital,  or other
                                                                individual        multiple-When
                                                                            physicians.
    they corresponded   instead to a group practice,
    physician setting, we telephoned the provider and obtained the names of physicians
    within the group or institution at random.

     We mailed a questionnaire  and cover letter to each selected physician between March
                            We sent a follow-up letter and replacement   questionnaire  to
     16 and April 6, 1993.         The questionnaire   is reproduced at the end of this
     nonrespondents  on April 16.
     appendti, along with unweighed   response frequencies.

      We accepted replies to our survey until June 11, 1993. The response                                                     rates we
      achieved are displayed in the table above.

      INFO~TION            FROM              CARR~RS

       From each of the 10 carriers in our sample, we requested specialty, total amount
                                                                  the following            paid
                                                                                 information
       for each of the physicians selected by random sampling:
       by Medicare excl~tding HPSA incentive payments for CYS 198S- 1992, total urban
       HPSA incentive payments for calendar years 1991-1992, total rural HPSA incentive

                                                                              A-3
payments for CYS 1989-1992. and whether the carrier had information indicating that

the physician was determined    ineligible to receive HPSA payments claimed for the

fourth quarter of CY 1992 (the quarter from which our sample was drawn; if the

carrier did have such information. the physician was excluded from our sample).


We received only partial information from each of the carriers. We did      not receive

sufficient information to analyze total payments or bonuses to physicians    prior to 1992.

For timeliness’s sake, we did not conduct tests to determine the validity   of this

computer-based     data. We believe, however, that the data are adequate    for the

analyses necessaty for the objectives of this study.


TELEPHONE       INTERVIEWS


The purposes of our telephone interviews were to achieve a better understanding       of

physicians’ experiences with the incentive payment program and to compare

respondents to nonrespondents.      We selected two groups of physicians for interviews.

The first was a sample of 38 physicians selected at random from the group of

respondents as of April 20, 1993. The second was a sample of 32 physicians selected

at random from the group of nonrespondents      as of May 10, 1993. We were able to

complete interviews with 25 physicians in the first group and 8 physicians in the

second group. (We excluded Puerto Rican physicians from both groups before

sampling because we did not want potential language problems to confound our

interpretations of physicians’ responses.)


DOCUMENT       AND LITERATURE          REVIEW


The written materials we reviewed included the following:
  �   Bills introduced during the 100th through 103rd Congresses;
  �   Regulations published by the Health Care Financing Administration    (HCFA)
      and Public Health Service (PHS);
  �   Memoranda      from HCFA and the Office of Inspector General’s Office of
      Investigations and Office of Audit Services;
  �   Articles on access to primary care and physician reimbursement  published in
      medical journals and weekly newspapers.

ANALYSIS     OF QUESTIONNAIRE          AND CARRIER        DATA

Weighting of resporwes

The responses were weighted in accordance with the Rao-Hartley-Cochran   sampling
method. This allowed us to make projections to the universe from which the sample
was drawn, i.e., recipients of incentive payments nationwide.




                                           A-4

Categorization   of incentive payment recipien~r into specialir~r and prima~    care physicians

The generally accepted definition of primary care physicians includes general and
family practitioners,  internists, pediatricians, and obstetriciardgy    necnlogists. But not all
physicians in these specialties deliver primary care , and physicians in other specialties
may deliver a good deal of primary care. Furthermore,           physicians’ specialties can be
self-designated   and may change over time. The Medicare carriers’ records of
physicians’ specialties are not always accurate.

With these difficulties in mind, we did our best to sort the physicians in our sample
into primary care physicians and specialists.   We categorized a physician as a primary
care physician if both of the following conditions were met: (1) either the carrier’s
records or the physician’s questionnaire  response showed the physician’s field as one
of the five mentioned in the preceding paragraph; and (2) the physician did not
answer “No” to the question, “DO you consider yourself to be a primary care
physician?”

By allowing either the carrier’s records or the physician’s responses to identify primary
care physicians, we avoided mischaracterizing     physicians as specialists. For example,
carrier records might show “internal medicine” for a physician who considered herself
to practice “geriatrics,” or carrier records might show “clinic” when the physician we
chose within the clinic might be a family practitioner.     In both of these cases, our
method would include the physicians as primary care physicians unless the physicians
indicated that they were not so.

As a check on this assignment procedure, we also divided physicians in our sample
into primary care physicians and specialists based on the amount of time they reported
spending on what they considered to be primary care services. We arbitrarily selected
so percent of the physici~ns’ time as the dividing line between the two groups. The
analyses we conducted using this definition showed essentially the same results as
those using the definition explained in the two preceding paragraphs.

Calculation   of individual bonuses

The amounts paid to physicians in our sample as incentives come from carriers’
records. We had to make adjustments to some of the figures provided by carriers
because they represented     payments made to groups of physicians, such as group
practices or clinics, rather than to individual physicians.

To compensate,   we divided the total incentive amount paid by the number of
physicians per provider number, as reported by respondents.    So if the carrier showed
an incentive payment of $20,000 to a group practice and the physician we chose from
within that group indicated that the group contained 20 physicians, we set the amount
paid equal to $1,000. If the provider number did not correspond to an individual
physician and the physician we selected from that provider did not indicate the




                                              A-5

number of physicians using that provider number,                 we considered   the incentive     amount
to be missing and excluded it from analysis.

Sample sues for statistics presented

Some of the statistics presented in the report apply to our entire sample of 497

physicians, whereas others apply only to the set of physicians who responded to our

mail survey and answered a particular question.     Statistics involving only the

physicians’ incentive payment amounts, specialties, and urban or rural location apply

to the entire sample; we were able to get complete data on these information

categories from the carriers. Statistics involving other information, such as amount of

time spent delivering primary care, practice setting within a HPSA, length of stay in a

HPSA, and importance assigned to incentive payments, apply to the set of physicians

providing the information in question.


ESTIMATES          AND CONFIDENCE               INTERVALS


The statistics    presented     in the report
                                      represent our best estimates.  For each statktic-­

other   than   median    payment      and proportions of respondents
                                     amounts                           choosing

individual importance scale points--we also computed 90 percent confidence intervals,

as shown in the table below:



 statistic
                                      I

                                      (         Point Estimate               9070 Cmfidencx?interval

 Proportion    of incentive recipients who are specialists
                                      !
                                                     49.8%                        44.7% - 54.9’%0
 Proportion    of incentive money that went to specialists
                                    1
                                    I              45.4%                          34.190- 56.77c>
 Proportion    of incentive money that went to specialists in urban areas
                                      1              53.570                       35.2% - 71.89Z0

 Proportion    of incentive money that went to specialists in rural areas
                                      I              35.2T0                       22.0% - 48.4%
 Proportion    of specialists who spend less than half their time on primary care
                                      I
                                      I             74.1%                         67.l% - 81.l~o

 Proportion    of specialists who spend less than 10% of their time on primary care
                                      I
                                      I             44.5%                        33.2% - 55.8%

 Proportion    of prima~ care physicians who spend at least half their time on primary care
                                      I              97.070                       94.9% -99.170

                                                  (continued)



                                                     A-6

Statistic                                                                                      ——
                                                              ~–
                                             Point Estimate           ~    90% Cmtfidencz Internal
Proportion   of primary care physicians who spend at least 90% of their time on primary care
                                                                     I
                                                 77.5%                         71.9% - 83.1%
                                                                     I
Proportion of incentive money that went to physicians spending less than 10% of their time on
primary care
                                I
                                              25.7%                ~         9.6% - 41.8%

Proportion of incentive money that went to physicians spending at least 90% of their time on
primary care
                                                                   )
                                              43.s70                         32.3% - 55.3%

Proportion   of incentive money that went to urban, hospital-based specialists

                                                  13.8%                           3.8% - 23.8%

Proportion   of time spent on primary care by urban, hospital-based specialists
                                                                      ,                              Ii
                                                  15.3%                           6.4% - 24.2%       II
Proportion   of urban, hospital-based specialists who provide no primary care
                                                                      ,
                                                   37. 1%.            1           26.7% - 47.55%

Mean	 importance rating of primary care physicians (PCPS)
                                                   3.37                             3.23-3.54
                                                                                                     1
Mean importance rating for PCPS with previously established practices

                                   1               3.54                             3.35-3.73
                                                                      I

Mean importance rating for PCPS with new practices
                                                   3.05               I             2.82-3.28

Proportion   of PCPS with previously established practices

                                                  64.7%               !           56.8+%-72.670

Mean length of practice in current location for PCPS (in years)

                                                   10.5                              8.8- 12.2

Mean incentive payment to PCPS
                                   )
                                                  S2,375              I           $1,777-$2,973
                                                                                                     I
Mean incentive payment to PCPS with high importance ratings

                                   \             $3,832                           $2,610-$5,054
Mean incentive payment to PCPS with low importance ratings

                                                 $1.723                           $1,102-$2,344




                                                  A-7

QUESTIONNAIRE

Following are the questions asked of physicians              in our survey, along with unweighed
frequencies and means of their responses:

W$ich of the following best describes you? (If you bill A4edicore using nlore than one provider number,
answer with respect to the provider nun[her printed on the /ques(ionnoircj. )


~                                                                                     Percentage

 Physician (SO1OPractice)                           ~~()                                 55.6
                                                                                                          ,
 Physician (Group Practice)                         136                                  34.3
                                                                                                          I
 Supplier                                            11                                   2.8

 Institution                         I               5                                    1.3

 Laboratory                          I                1                                   0.3
                                     1
 Other                                               13                                   5.8
                                     1                                  [                                 I
 Total                                              396                                  100.0            J
If you circkd group practice, how muny physicians ore in your group?


            N                 Mean               Standard              Minimum                  Maximum
                                           ~     Deviation       ~
                               3.5         ]        8.4
            352                                                             1   —-.         . .—.—85

Note: We assigned the number 1 to physicians who circled “Physician (Solo Practice).”




                                                   A-8

W%at is your principal speciidly?


                                        Frequen~y

 Family Practice
                                           1“1      -
 Internal Medicine                         62

 General Practice                   I      47            I         11.6
                                    I
 General Surgexy                           31            1         7.7
                                                         ,
                                    I
 Diagnostic Radiology               I       19           I         4.7

 Podiatry                           ~      18                      4.4
                                                         I
 Cardiology                                 16                     4.0
                                    I                    ,
                                    I                    I          3.5
 Optometry                                  14

 Ophthalmology                      I       10                      2.5
                                                         (
 Orthopedic Surgery                         9                       2.2
                                                                               1
 Obstetrics/Gynecology                      8            1          2.0
 Anesthesiology                     I
                                            7                       1.7
                                    I                    I          1.7_— --
 Urology                                    7                —
                                    I               ——
 Psychiatry                         I       6            I          1.5
                                    I
 Chiropractic                               6            ,          1.5
                                    I                    I
 Emergeney Medicine                         5                       1.2

 Otolaryngology                             4            I
                                                                    1.0
 Gastroenterology                           4            I
                                                                    1.0


 Pathology                          I       4            I
                                                                    1.0
 Physical Medicine                  1       4                       1.0
                                    1
 Neurology                          I       3                       0.7
                                    I                    (
                                                         (
 Dermatology, Pulmonary             ~    2 each          1       3.0 total
 Disease, Nephrolo~,                I
 Rheumatology,                      1
 Hematology/Oncology, and
 Medical Oncology                                        I
 Neurosurgery, Plastic Surgery,           1 each         1       2.0 total
 Geriatrics, Vascular Surgery,      1
 Hematology, Radiation                                   i



 Oncology, Physician Assistant,
 and Other                                               I

 Total                              1      405                      100




                                          A-9

Are you boord elig”bleor board c[]rti/7cdin thor speci[tlly?

                                      I


                                                  Frequency                        Percentage
                                      )
                Yes                                   329              (                 S2.7
                                                                       1                                    A
                 No                   I                69                                17.3
r                                     !                                I
                Total                 1               39s              !                 100.0              11

Do you consider yourself to he o primmy care phy.sicion ?


                                      !            Frequen~y                       Percentage

                 Yes                  I               2s1                                70.6
                                      I                                I
                 No                   I                117                               29.4
                                      I
                Total                 !               398              I                 100.0

About what percentage of your po[ien!-care ho[ws do you spend delivering what you consider to be prirnaiy
care?




In what year were you born?


          N                    Mean                Standard           Minimum        I          Maximum
                                                   Deviation     \
                                                                 [
         392            ;      1946          I        10.5                 1915                   1966
                                                                 1

Have you ever been a menlber of the Notional Health Service Corps?


                                      1            Frequen~y                       Percentage

                 Yes                  I                21              I                 5.4
                                      1
                 No                                   367                                94.6
                                      I
                Total                                 388                                100.0
L                                                                      I

About what percentage of your pmients ore insured by Medicare?




                                                    A-10

Do you accept pntienrs on Medicaid? (Note: excludes physicians from Puerto Rico, which has an unusual
Medicaid program.)

    I                                 (
                                                                         I
1’                                    I
                                      1
                                                   Frequency                          Percentage               I
(                                     I

                Yes                                   349                I                  94.1               I

\

I
                Total                 I               371                                   100.0              ~
i




If yes, about what percentage of your potients ore insured by Medicaid? (See note to previous question.)

I                                           I                     T
          N                   Mean          ~      Standard       ~     Minimum                    Maximum     ~
                                                   Deviation      ~
    v
          327                  19.4                   16.7        ~          o                       90

Do you accept patients without heollh insurance?

                                                                         I

                                                   Frequency             1            Percentage

                Yes                                   393                                   97.5

                 No                                    10                                   2.5
                Total                                 403                                   100.0

If yes, about what percentage of your patients are uninsured?

r-y---­
,                                                                                                              ,
                              Mean                 Standard       ~     Minimum                    Maximum
                                                   Deviation      !
                                                                                        I
          346                  13.7                   12.4        I          0          I            75

Were you aware, before receiving this xurvq, that Medicnre ojjlered incentive payments for selected services
provided within HPSAS?

r
!!                                                 Frequency                          Percentage
~
‘1              Yes                                   305                                   75.9
I
,                No                                   97                                    24.1
                Total                                 402                                   100.0




                                                    A-II
Were you aware, before receiving (his sunwy, thar you recmt[y received an incentive payment fkorn
Medicare?


                                                Frcq ucncy                          Percentage
~
                     Yes                            236                I                  71.9
                                        ,
                      No                            112                 I                 28.1
                                                                                                           1
                                        I
                     Total              I           398                 I                 100.0

How many years have you practiced within the bound flries oJ”a HPSA ? (If you practiced {here before the
area was designated as a HPSA, include fhose years. If you practice in more than one HPSA, answer with
respecr to the HPSA in which you have prncticed the longest. )

                             1              I                                         I
               N                 Mean            Standard       ~     Minimum         ~          Maximum
                             ~              I    Deviation      !
                                  -~                            ~                     I
                             I                                                                     42
               376           \   10.6       ~       9.4                     o

In 1992, about what percentage of your working hours did you spend wifhin a HPSA ?

r
                                                                I                                          1
               N                 Mean            Standard	            Minimum                    Maximum
                                                                I
                                            I    Deviation      I
                                            1
               362               70.7       i       37.4                    0                      100

Within the HPSA(S] where you practice, in which of the following settings do you spend nzos[ of your
working hours ?

                                                                        I
                                                 Frequency              1           Percentage
                                                    215                 I
    Private Office                      I                                                 54.7

    Hospital                            I            87                 ,                 22.1



    Nursing Facility                    I            4                  1                  1.0
                                        I                                                                  1
IIOther                                              13                                    3.3             II
    More Than One Response                           34                                    8.7
                                                                        1
    Total                                           393                 I                 100.0

About what percentage of your total 1992 revenues (Medicare and non-Medicare) did the HPSA-related
incentive pflyntents constitute?

We discarded this question, because a large number of respondents either did not know or gave figures
higher than 10 percent. Ten percent is the maximum possible response to this question, and that
number would only apply to physicians whose income came entirely from Medicare.




                                                  A-12

How important ore the bonux paynzcn[s in your decisions about w’here[o practice?
                                                                                                              ,
                                               Frequency              I            Percentage
                         ——.         —                      ————                                           —+ ‘
 Extremely (1)                                     ?)9                                   10.0
                                                                                                  -----1
 Very (2)                                          63                                    16.1

 Moderately (3)                                    78                                    19.9
                                                                      )
 Slightly (4)                                      77                                    19.7
                                                                      1
 Not at All (5)                                    134                ~                  34.3

 Total                                             391                I               100.0


                                          1
                     I
            N~               Mean         ~     Standard       ~     Minimum         ~          Maximum
                                          I     Deviation

II       391                  ??.5                  1.4                   1                        5




                                                 A-13

MAIL SURVEY INSTRUMENT




         A-14
-~g           *U           1 &ou@   7 ~~e       ~oe   ~    de     prfldi% i.f2,
                                                                             allfOCti~   d      & p-.



      Which of the following best describti you? (Circle one. If you.bill Medicare USUQ?
      more than one provider number, answer with respectto the provder number P~t~ on
       he revuse side of the page)                                             Laboratory
                                                             Institution
                                           Supplier
       ?hysician (Solo Practiu)
                                           ~ther(~pec~fi~
       Physician (Group Practice)
       If you circld group practice, how many physicians are in your group?
                                                                                                         ~            NO
       What is your principal specialty?
                                                                                                          YES NO
       Are you board eligible or board certified in that specialty?
           Do you consider yourSelf to be a primary care physician?

           About what per~nmge of your patient-are hours do you spend delivering what you
           consider to be primaq care?
           In what year were you born?
            Have vou ever been a member oi the Nationai Health Service Corps?
                                                                                                             WS        No
            About what percen~ge of your patiens are insurd by Mediare?
            Do you aapt      patien~ on Mediaid?
                                                                                                             ws        NO
            IF YES,     about what Perantage ‘f ‘our ‘~di=id?

             Do you accept patienu without health insuranw?
             IF YES, about what percentage of your patien~ are uninsured?

       ~ering        ens       8 through 14, please direti your en       lo the workyou have&m b a H&
                                                                                                              YES NO
              Were you aware, before receiving this survey, that Medimre offered inWntive
              payrnenw for selected setim provided within I-IPSAS?                                            ws           NC
              Were you aware, before receiving this survey, that you rewntly received an incentive


       )      HOWmany yearn have you practiced within the boundarie of a HPSA? (~fyou
              practied there before the area was designated as a HPSA, include those years. If you
              practice in more than one HPSA, answer with respect to the HPM in which you have


            In 1992, about what perw*tage of your wor~ng hours did YOUsPend ‘ithin
       ~-==---                                                                                  a ‘PSAT           ~

       .2       Within the I-IPSA(S)where you practi~, in which]f of
                                                                  youthenofollowing
                                                                           longerpractice  in do
                                                                                    settings  a HPSA,
                                                                                                 YOU
                spend most of your worting hours? (Circfe one.
                                                                             Other (spe.ifi~~
                answer with respect to the HPSA whereyou most recentfypracticed)
                                                                 Clinic
                   .                                Hospi@
                                  Nursing Facility

       13       ;b~;~h~t~erunmge      of your total 1992 revenu~ (Mediare and non-Medimre) did
                 the HPSA-relatd incentive payments constitute?
                                                                                                                       5
       14          How important are the bonus paymen~ in your9 decisions about where 4to practiw? (Circfe one.)
                                                                     3                                            Not at all
                                            2
                    1                                                                slightly                     important
                                                                Moderately          important
                                         Very
               Wremely                                          important
                                       important
               important
       I
                                                                                                                                I
                                wyoU        Ptietiptiwae*@~f_fo4~~r~
       r
TELEPHONE   INTERVIEW    DISCUSSION GUIDE   -




                  A-16
                              Health Professional Shortage Area Study

       Telephone     Intetiew    Questions for Physicians who Responded           to Mail Survey


Name of ReqxmdenC

Control Number of Respondent               (State and Number):

Telephone Numben

Date of Intervicx

Name of Interviewe~


You’ve been practicing in your current location for _                 years, is that right?

                              NO (If no, give correct answer:         )

/Me you in a rural or an urban setting?             (An area ir rural if it k NOT in a Metropolitan
Statistical Area)

         RURAL                URMN           DON’T KNOW

Where did you practice before moved to your current location?                  (If nol a familiar
locatioq prvbe      to find    out if it was a rural or urban setting.)




What    brought you to your current location?




Do you have any plans to move to another location in the near future?                   If SO,where,
and why will you be moving?




                                                     A-17

How would you describe the availability    of primary     health care services in Your area?




How would you describe the availability    of specialty    health care sexvices in Your area?




How far is the nearest                       (respondentti specialy) from your office?



How did you hear about the Medicare incentive payment program?               (If lhv were
recently in another location, were they receiving incentive payments    there?)




 (Ask next 2 questions only ij they’ve been practicing in the HPLL44 years or 1=)         TO
what extent were the incentive payments a factor in encouraging         to you practice    in an
undersexed    area?




 If the payments had not been offered, would you still have chosen to practice there?




                                                  A-18

To what extent arc the payments    a factor in your decision to keep practicing   in your
area?




If the payments were no longer offered, would you move?




Are there approaches other than bonus payments that the Federal Government could
take to increase access to needed medical care for residents of underserved areas?
&obe    for both rnonetq   and nonmonetaty   approaches.)




Do you have anything else to add?




                                         A-19

                            APPENDIX                  B

           DETAILED COMMENTS ON THE DRAFT REPORT AND
                   OIG RESPONSE TO THE COMMENTS

In this appendix, we present in full the comments on the draft report offered by the
Health Care Financing Administration     (HCFA) and the Assistant Secretary for
Planning and Evaluation (ASPE).      We also present our response to each set of
comments.




                                         B-1

      *   ,,,VU,,   ,.
                                                                                                    Health   Care
 +>                      -.
.-


          &
                                  DEPARThlENT   OF HEALTH & HUI$IAN SERVICES                        Financing   Admmmtratlon



“*
 f+J*,.>*
   >2                                                                                               Memorandum
                                  ,kt4R 71994
             Date
                                  Bruce C. Vladec,         --- A
            From
                                  Administrator    %


             Subject	             Office of Inspector General (OIG) Draft Reports: “Medicare Incentive Payments in
                                  Health Professional Shortage Areas,” (OEI-01-93-00050) and “Design Flaws in the
                                  Medicare Incentive Payment Program” (OEI-01-93-00051)
             To

                                  June Gibbs 13rown
                                  Inspector General


                                  We reviewed the above-referenced  final reports in which OIG provided the results of
                                  its review on payments being made to physicians under the Medicare Incentive
                                  Payments program.

                                  The Health Care Financing Administration (HCFA) concurs with the second
                                  recommendation.   However, we do not concur with the first recommendation and are
                                  not able to comment on the third recommendation because of a lack of specificity in
                                  the OIG proposals and because of the potential impact of proposed changes in the
                                  Health Security Act.. Our specific comments are attached.

                                  Thank you for the opportunity to review and comment on this report. Our detailed
                                  comments on the findings and recommendations contained in the report are attached
                                  for your consideration. P1ease advise us if you would like to discuss our comments at
                                  your earliest convenience.

                                  Attachment
                                    .          ——. —_ _.    .—
                                                                                                                    —.



                              —




                                                                               B-2

            Health Care Financinq Administration’s     (HCFA) Comments
                 on Office of Inspector General (OIG) Draft Re~orts:
        “Medicare Incentive Pavments in Health Professional Short.mze Areas”
               (OEI-01-93-00050)     and “Design Flaws in the Medicare
                    Incentive Pavment ProPram” (OEI-01-93-00051]


Recommendation      1

HCFA should seek to eliminate the Medicare incentive payments entirely.

HCFA Response

We do not concur. OIG stated in their report that two-thirds of primary care
physicians indicated that the payments range from slightly to extremely important.
One-third of primary care physicians indicated that the payments are very important
to their practice location decisions. In light of these findings and absent a definitive
evaluation of how important the payments are to physicians in their practice location
decisions HCFA believes it is premature to recommend eliminating the program.
We believe that elimination of the program would cast aside this useful mechanism
for providing better access to medical care for beneficiaries in underserved areas.

Recommendation     2

HCFA should modify the Medicare incentive payment program to target it more
effectively to primary care.

HCFA Res~onse

We concur. However, the OIG study appears to be based on the premise that the
intent of the incentive payment program is to improve beneficia~ access to primary
care services. While we would agree that legislative histoxy points to the House of
Representatives’ intent to limit the bonus to primary care services, this restriction
was not adopted by the Senate or the Conferees. In addition, there may be access-
to-care problems for specialist services in rural health professional shortages areas
(HPSAS). Therefore, we do not want to target the bonus payment exclusively to
primary care.

We believe that Congress clearly intended to increase beneficiary access to health
care in HPSAS. We also recognize that since the overwhelming percentage of
specialists practice in urban areas, an access-to-care problem does not likely exist for
access to specialists in urban areas. For example, although a number of prestigious
hospitals are located in urban HPSAS, many patients who are treated at such
hospitals tire affluent and travel to those facilities seeking the finest specialty care.
These patients do not have access problems. As a result a very large share of
incentive payments made to specialists affiliated with those hospitals reflects services


                                            B-3

Page 2

furnished to beneficiaries who Jive outside the HPSA. We believe that making
incentive payments to specialists in urban HPSAS is an unnecessary expenditure for
the trust fund.

The President’s Health Security Act contains a proposal to limit bonus payments in
urban HPSAS to primary care setices.    The savings would be used to increase the
incentive payments for primary care sclvices in both urban and rural HPSAS from 10
to 20 percent The expectation is that a 20 percent bonus wouId be more significant
in encouraging the provision of primary care services.

Recommendation      3

HCFA should channel funds from the Medicare incentive program for new or
existing mechanisms for improving access to primary care.

HCFA Res~onse

We believe that OIG’S proposals to rechannel savings from shrinking the incentive
payment program to Medicaid or a fixed bonus program are not sufficiently
developed for us to comment on at this time. We agree with OIG noted in its
repo~ it is too early in the history of this program for an evaluation of its
effectiveness. If the two fundamental flaws identified by OIG were allowed to
continue, we would agree that alternative approaches could be considered for the
long term. However, we believe that the aforementioned legislative proposal, which
will limit incentive payments in urban areas to primary care services and raise
incentive payments in both urban and rural areas will correct those deficiencies.

TECHNICAL         COMMENTS

OIG should     include a copy of both the written survey and telephone intelview
instruments   in its report. There was a reference to contradictions between responses
gathered in   interviews and the survey questionnaires. The opportunity to review both
instruments   might be helpful to our understanding of the mixed responses.

We question whether the sample of 497 physicians out of the 2~000 physicians
receiving HPSA payments is representative of the nation. It appears that a s~p-
interval random sampling method was used to select the physicians for the survey.
This method is satisfactory if a representative sample is drawn. However, if the
sample is not representative, a stratified sample would produce a more representative
population. OIG should include more data on the soci~economic characteristics of
the physician population selected for review. Suggested additional descriptive
characteristics include the proportion of urban to rural physician responses and the
volume of services the physicians provide for which incentive payments were made.


                                            B-4
                      OIG RESPONSE        TO HCFA COMMENTS

We are pleased that HCFA concurs with our second option to modify the incentive
payment program to target it more effectively to primary care. The President’s Health
Security Act proposal to alter the program could, by increasing the size of the
incentive payment, make it a more effective incentive. Also by eliminating incentive
payments made for specialty services in urban areas, some of the least well-targeted
payments could be eliminated.      While we acknowledge that shortages of specialists
likely are occurring in rural areas, we note our concern that the criteria for designating
HPSAS do not include shortages of specialty sewices. Furthermore,          given limited
resources and the well-articulated   priorities of the current Administration   to increase
access to primary care, targeting the program more towards primary care may be
more crucial than targeting specialty care set-vices. Nonetheless, we consider the
proposal to be meeting the objective laid out by the option.

We have eliminated from our recommendation        the first option (elimination of the
program) and the third option (rechanneling funds ti-om the program).         We note that

our initial intention was to present them as options; we are pleased that HCFA

considered them and commented on them.


We agree that including the written survey instrument  and the telephone interview

instrument could be instructive to readers. We have included them in appendix A.


We do not share HCFA’S concern with our sample selection.         As noted in appendix A,

we used a well-accepted     method (Rao-Hartley-Cochran)    for sampling in the first stage

carrier selection; we used skip-interwal random sampling to select physicians within

each carrier. No unexpected bias was introduced by using this method in combination

with the appropriate    weighting methods.   Furthermore, we present confidence

intervals for each statistic we used. This allows the reader to determine the precision

of our estimates based on the sample.





                                           B-5

      9




$
          /“ ~EPARTMENT OF HEALTH & HUMAN                      SERVICES                           Qfuceof U16Secmw


2’.            -                      —                                                           WaMnQl~. OX. 2U201




                        EWan -B. X$tchell
                        principal13eputy

                                       Inspector                          General

                        A68is&i.nt          Secretary          for    “
                        Planning            and   Evaluation

                        ~.epo~~ ~~ .ysd~c~r~’

                                            ~~cc~.t~~epa~~nt
                                                          ._
~~c?~li~‘­

                        concurrence with Coxnent ,


          This pair of repofis exanzinea the MedicareIncantiVt3    Pa~entS
          Program,which providesbonus payments   to both primary cam      and
          specialtycare physicianswho work in Health Processionalshort­
          age Areas (HPSAS). The first report evaluate9     the f3uccess of
          this  program  in improving  accesa     to primary   care physician,                                and
          the second seeks to identity      design   flaws inherent    to the                              pXo­
          gram.    Our comments relate   exclusively     to the fizst report.

          From a methodologicalstandpoint,we found this study sound.
          Still, We believethat at tties both its presentation and its
          conclusions         are     hadvertently             rnisleatling.          rox   exampLe:

          .        A B@O*      finding,highlightedon pags       4 and in                         the    Execu~iVe
                   Summary,      k! that about half of the $68 million  bonuses                    of
                   paid in      1992 went to specialists rather   prtiary care
                                                                    than
                   physicians. ‘I’his
                                    statementgives the Impressionthis entire

                   amountwas spent for r3peaialtY care servicef3.   Within  the
                   text     at the report, however, it is stated         that   specialists
                   in HPSAS provide       a aignifi.cant    amount of primary care ser­
                   vices; therefore, the percentage             OZI funds spent    for spe­
                    c~alty     servicesis substantially18s5. We feel this                  fact is
                    crucial     to an evaluation      of the prograzu$s   Uupact on pztiam
                    cam accees.       Ther@fOre,we suggestthat OXG calculatethe
                   percentageof’ funds paid for specialtycare senfices~~d
                   that it presentthis figure as prominently as the percentage
                   paid to specialists.

              .	   When asked how importantMedicarebonus paymentswere in
                   their locationaldecision,52 percent of prinary care phY~*­
                    cian8     rated       them    as    “moderately            to   extremely    tipotiant”~
                    while        percent of them rated the paymentsas “not at
                              Ot’dy    32
                    alll~Important. Eased on these figures,OIG concludesthat
                    lt~edicar~

                             ~centive pa~~nts apparently   have little effect



                                                                          B-6

FagO
2 -,Bryan     Mitchell


      on practice locationdecisions.m Considering mat         ~er   half
      Of physicians mmmyed    rated the pa~e~ts   as a~ least     XnOder­
      ately important, the wording  Of Oxcfa Conclusion r3Q611U3
      misleading,perhapseven inaccurate.

.
    TM     Zi?X3t of the renoti~s two recommendations     iE tO elM­
      nate    the incentive     ~aymerat program entirely.  we are not
      certain    that   the evidence     justifiesGO strong a
      recommendation,       for two reasons:
             * Firstras discussedabove,We feal the evid-ce
             againstthe program is less compelling than f30m9 of                            tha
             highlighted       findings      suggesk

             - Second, tha report evaluatesthe pro=am agafista

             standarddifferentfrom the one it was deaigxled
 to

             achieve. The origlna~l~gislationexplicitlymade bo­

             p%ti~ care doctors and”’
specialistsel~gtile fO~
             bonuses; th6 OIG study, tWWZVer, focuses on oXIIY
             prh=y    care, and criticizesthe progrm for pr=idtig
             bonuses    for    8peeLalty       care.

       OXG does acknowledge this difference in goals at me be@n­
       ning of the zeport. Howevez, given the important perspec­
       tive which this information  gives on the zeport’8reca­
       mendations?we feel it should be further emphasized- Theze-
       fOr6, i.fOXG continues to recommendthat the iMentiVe
       p%ogran h eliminated,we suggestthat the diffewmce      in
       goals be axpllcitlynoted both in the ~xeouti~e  S-am      and
       iamdiately  before the recommendations.   ~Sor r@9a~dles~ ‘f
       what recommendations  are offered,OZG shouldexplicitly
       state that it views the original legislative goal to be
       inappropriate,and describe the reasons why it feels change
       is warranted.
Finally,  we SU~eSt that OIG include an additionaloption in its
 list of recommendations.The report indicatesthat 14 percent of
 bonuses currentlygo to specialistsin za~ge,prestigious
 hospitalsIoaatedin inner cities. These physiciansXeCeive
 bonusesbecauseHPSA designationsare based only oxa the numbe= of
 Pzisn=y   Cars   physicians       in   an   area,     not     the   number   of   health   caxe
                            TO ensurethat bonusesare targeted
 facilitiesor f3pecialif3tz3.

 to thosa areasmost in need, OIG should recommend that PHS modify

 i~s method for designatingHPSAa to cansider all types of

 providersin an area.



                                   ~avicl
                                             wa==­
                                              T.     Ellwood

 prepared W:      C. Prentice 690-7994


                                                     B-7

                        OIG RESPONSE TO ASPE COMMENTS

The ASPEconcurred       with our recommendation,   but expressed concern about the first

option to eliminate the program and suggested a fourth option to modify the methods

by which HPSAS are designated.      We have eliminated the first option (as well as the

third option) as a result of HCFA’S response and the Health Security Act proposal.

As far as the methods of designating HPSAS are concerned, we discuss problems with

using HPSA designations for incentives on specialty services in a separate report on

this issue (“Design Flaws in the Medicare Incentive Payments Program” 0EI-Ol-93-

00051). We believe it would not be prudent to change the HPSA designations for the

purposes of this program since it is not the only program that uses HPSA designations.

The National Health Service Corps program, for example, also uses them. Thus, the

ramifications of modifying the HPSA designation are beyond the scope of this report.


We are pleased that ASPE found our study methodologically            sound. The ASPE raised

concerns about presentation      and conclusions.    We made some clarifications in

response to these concerns.      In response to ASPE’S proposal that we include

information about specialty care services and display it prominently, we have included

information we have from the Physician Payment Review Commission on the subject.

We have not, however, displayed it prominently for the following reasons: 1) we

already give prominence     to analysis that clarifies that not all money going to specialists

is spent on specialty services and 2) since specialty services are much more expensive

on average than primary care services, the percentage of incentive payments spent on

specialty services will be much higher than the actual percentage of time spend

providing specialty services (and therefore is not an accurate indicator of relative

availability of specialty services in comparison to primary care services).


We agree that our statement that incentive payments apparently have little effect on

practice location decisions may have been too strongly stated. We have clarified the

statement.   We have also clarified our discussion about what we learned from our

intemiews with physicians about the importance ratings. We do note, however, that

the importance ratings were only one of three pieces of evidence we cited to make the

finding statement.





                                            B-8

                             APPENDIX                  C


                                         NOTES



1.   Barbara Starfield and Lisa Simpson, “primary Care as Part of US Health
     Services Reform,” Journal of [he American Medical Association 269 [June 23/30,
      1993) 24: pp. 3136-39; W. Pete Welch et al., “Geographic Variation in
     Expenditures   for Physicians’ Services in the United States,” New ErZgla12d
     Journal of Medicine 328 (March 4, 1993) 9: pp. 621-27.

2.   42 C.F.R. 5 (Appendix    A), Sec. 1.B.3.(a).

3.   State-level: “’State of the States,’ 1993: Reform of the Health Care System
     Remains an Imperative,” Stole Hewltil Notes - Special Issue, March 15, 1993,
     pp. 6-8.

     National: Bill Clinton, “The Clinton Health Care Plan,” New England Journal of
     Medicine 327 (September     10, 1992) 11: pp. S04-7.

4.   Robert M. Politzer et al., “Primary Care Physician Supply and the Medically
     Underserved:   A Status Report and Recommendations,”      JoulTlal of t}le America~t
     Medical Association 266 (July 3, 1991) 1: pp. 104-109; Steven A. Schroeder and
     Lewis G. Sandy, “Specialty Distribution of U.S. Physicians--The    Invisible Driver
     of Health Care Costs,” New Engkmd ]ournal of Medicine (April 1, 1993) 13: pp.
     961-963.

5.   Health Professional Shortage Areas (HPSAS) were originally       known as Health
     Manpower Shortage Areas (HMSAS).

6.   The criteria for HPSA designation are contained in 42 C.F.R. 5. There are also
     areas designated as HPSAS for dentists, psychiatrists, and other caregivers
     rather than for primary care physicians, but this report does not address those
     HPSAS. Medicare incentive payments apply only to HPSAS designated with
     respect to primary care physicians.

7.   Health Policy Research Consortium, Medicare Bonus Payments to Physicians in
     Health Manpower Silortage Areas: Final Report, Cooperative  Agreement No.
     18-C-98526/l-05,  report prepared for Health Care Financing Administration,
     April 1989, pp. 1:2-4.

8.   H.R. Rep. No. 391(1), 100th Cong., pp. 3S9-90.      See also H.R. 3188, 100th
     Congress.

9.   Omnibus   Budget   Reconciliation   Act of 1987 (P.L. 100-203), Sec. 4043.



                                          c-1
10.   H. R. Conf. Rep. No. 386, 10lst Cong., p. 754.


11.   Omnibus Budget Reconciliation     Act of 1989 (P.L. 101-239), Sec. 6102(c).

      Current law regarding the extra payments is contained in Section 1833 of the

      Social Security Act (42 U. S.C.A. 13951(m)).


12.   Physician   Payment   Review Commission,         Annunl     Report 1992, p. 129.


13.   Memorandum       and attachments   from Edward A. King, Health Care Financing

      Administration,   to Stewart Streimer, Health Care Financing Administration,

      February 22, 1993. The 22,000 figure excludes physicians reported by the

      Railroad Retirement     Board carrier, because most if not all of those physicians

      are also reported by the carriers in the physicians’ own States.


14.   Health   Policy Research     Consortium,     p. 1:1.


15.   Physician Payment Review Commission, Annual Report 1992, pp. 127-132 and

      Congress of the United States, Office of Technology Assessment, Heath Care in

      Rural America, September   1990, pp. 350-351.


16.   U.S. Department    of Health and Human Services, The Fiscal Year 1994 Budget,

      April 8, 1993, pp. 3, 15, 41; and Statement of Donna E. Shalala, Secretary of

      Health and Human Services, Before the Committee on Finance, United States

      Senate, April 1, 1993, pp. 2, 4.


17.   HPSA bonus payments are made quarterly,                 but need not correspond exactly to

      services provided in the preceding quarter.             In other words, retroactive claims

      for bonuses are permitted.


18.   The Physician Payment Review Commission did an analysis of incentive

      payments for its 1994 annual report to Congress.     It found that in the first two

      quarters of 1992, 66 percent of incentive payments were made for specialty

      semice payments.    Because specialty services generally are more expensive than

      primary care services, this supports our finding that half of the physicians

      receiving incentive payments were specialists.


19.   This statistic and several others are based on the responses of physicians who

      answered our questionnaire,    not the total sample of 497 physicians. See

      appendix A for a discussion of which statistics are based on data about

      respondents    rather than the entire sample.


20.   Office of Technology       Assessment,     1990, p. 8.


21,   Fifty-three (25 percent) of the 213 primary care physicians responding to the

      question said they were unaware before receiving our questionnaire     that

      Medicare offered incentive payments.     Thirty-two (60 percent) of these 53 rated

      the payments at least slightly important, and 6 rated them extremely important.




                                                 c-2
22.    Health   Policy Research   Consortium,     p. 3:14.

23.    The median net income for physicians, after expenses and before taxes, was
       $139,000 in 1991, according to the American Medical Association

       Socioeconomic      Monitoring System 1992 core survey of nonfederal patient care

       physicians excluding residents, December 1992. The median income for general

       and family practitioners was $98,000; for internists, $125,000; and for

       obstetricians/gynecologists,  $200,000.


24.	   The weighted correlation coefficient is -0.25 (’p e .001), indicating a significant
       relationship between high incentive payments and low numbers on ratings.

25.    Health   Policy Research   Consortium,     pp. 3:5-9.

26.    Health   Policy Research   Consortium,     pp. 3:11

27.	   William G. Cochran,    Sampling   Tecimiques     (3rd Ed.), New York: John Wiley &
       Sons, 1977, p. 266.




                                            c-3
